                                 NCUA 2013
                        FINANCIAL STATEMENT AUDITS
                                    FOR
                      TEMPORARY CORPORATE CREDIT UNION
                            STABILIZATION FUND




                      For the year ended December 31, 2013

           Audited Financial Statements                Audit Report Number

Temporary Corporate Credit Union Stabilization Fund          OIG-14-05


                                  March 17, 2014




                                  James W. Hagen
                                 Inspector General
EXECUTIVE SUMMARY




PURPOSE AND SCOPE

This report transmits KPMG LLP’s (KPMG) report on its financial statement audit of the
National Credit Union Administration’s (NCUA) financial statements for the Temporary
Corporate Credit Union Stabilization Fund (TCCUSF) as of and for the years ended December
31, 2013 and 2012. The NCUA prepared financial statements in accordance with the Office of
Management and Budget (OMB) Circular No. A-136 Revised, Financial Reporting
Requirements, and subjected them to audit.

AUDIT REPORTS ON FINANCIAL STATEMENTS, INTERNAL CONTROL, AND COMPLIANCE
AND OTHER MATTERS

Under a contract monitored by the NCUA OIG, KPMG, an independent certified public
accounting firm, performed an audit of the NCUA’s financial statements as of December 31,
2013. The contract required that the audit be performed in accordance with generally accepted
government auditing standards issued by the Comptroller General of the United States; Office of
Management and Budget audit guidance, and the Government Accountability Office/President's
Council on Integrity and Efficiency Financial Audit Manual.

KPMG’s audit report for 2013 includes: (1) an opinion on the financial statements,
(2) conclusions on internal control over financial reporting, and (3) a section addressing
compliance and other matters. In its audit of the NCUA, KPMG found:

      •    The financial statements were fairly presented, in all material respects, in conformity
           with U.S. generally accepted accounting principles;

      •    There were no material weaknesses in internal controls; 1

      •    There were no significant deficiencies related to internal controls; 2 and

      •    No instances of reportable noncompliance with laws and regulations it tested or other
           matters that are required to be reported under Government Auditing Standards or OMB
           guidance.




1
  A material weakness is defined as a deficiency, or combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis.
2
  A significant deficiency is defined as a deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with governance.


                                                                                                                              Page | 1
EXECUTIVE SUMMARY




OIG EVALUTAION OF KPMG’S AUDIT PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG’s approach and planning
of the audit, evaluated the qualifications and independence of the auditors, monitored the
progress of the audit at key points, and reviewed and accepted KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, opinions on NCUA’s financial statements or
conclusions about the effectiveness of internal control, or conclusions on compliance with laws
and regulations. KPMG is responsible for the attached auditor’s report dated March 14, 2014
and the conclusions expressed in the report. However, our review disclosed no instances where
KPMG did not comply, in all material respects, with generally accepted government auditing
standards.

This report is on the TCCUSF for the year ended December 31, 2013. Reports for NCUA’s
Operating Fund, Share Insurance Fund, Central Liquidity Facility and Community Development
Revolving Loan Fund were issued on February 18, 2013, and can be found on the NCUA OIG’s
website.

We would like to extend our thanks to NCUA management and staff involved in issuing the
TCCUSF’s financial statements. In addition, we appreciate the professionalism, courtesies, and
cooperation extended to KPMG throughout the audit and our oversight of the audit process.




                                                                                          Page | 2
Report #OIG-14-05
National Credit Union Administration
Temporary Corporate Credit Union
Stabilization Fund
Financial Statements as of and for the Years Ended
December 31, 2013 and 2012, and
Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND
TABLE OF CONTENTS


                                                     Page


OVERVIEW                                                1

INDEPENDENT AUDITORS’ REPORT                         10-12

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
DECEMBER 31, 2013 AND 2012:


Balance Sheets                                         13

Statements of Net Cost                                 14

Statements of Changes in Net Position                  15

Statements of Budgetary Resources                      16

Notes to Financial Statements                        17-35

Required Supplementary Information (Unaudited)       36-38

     
Overview

I. Mission, Background, and Organizational Structure

TCCUSF Mission and Background

The National Credit Union Administration (NCUA) administers the Temporary Corporate Credit
Union Stabilization Fund (TCCUSF).1 Congress established the TCCUSF in May 2009 as a
revolving fund in the Treasury of the United States (U.S. Treasury) under the management of the
NCUA Board. The TCCUSF is currently planned to close in June 2021.

The TCCUSF was established to accrue the losses of the corporate credit unions during the credit
crisis and to recover such losses over time. References to credit unions or credit union system
refer only to those credit unions that are federally insured.

Acting under authority granted by Congress under the Helping Families Save Their Homes Act of
2009, the NCUA Board took action to provide significant relief to insured credit unions in
dealing with assessments related to corporate credit union stabilization actions while maintaining
a safe and strong National Credit Union Share Insurance Fund (NCUSIF).2 With the failures of
several large corporate credit unions in 2009, the TCCUSF provided an opportunity to mitigate
the one-time assessment burden on insured credit unions for corporate credit union stabilization
actions. While it has recognized the corporate credit union stabilization costs under the
TCCUSF, the NCUA Board, at its discretion, determines if, and when, to assess premiums over
the life of the TCCUSF. From inception through 2013, special premium assessments collected
from federally insured credit unions totaled $4.8 billion, and gross guarantee payments made
totaled approximately $9.4 billion. Currently, no additional special premium assessments are
expected for the recovery of losses over the remaining term of the TCCUSF. Should adverse
conditions develop, the NCUA Board may have to impose an assessment.

On September 24, 2010, the NCUA Board announced the Corporate System Resolution Program
(CSRP). The CSRP is a multi-stage plan for stabilizing the corporate credit union system,
providing short-term and long-term funding to resolve a portfolio of residential mortgage-backed
securities (RMBS), commercial mortgage-backed securities (CMBS), other asset-backed
securities (ABS) and corporate bonds (collectively referred to as the Legacy Assets) held by the
failed corporate credit unions, and establishing a new regulatory framework for corporate credit
unions. Under the CSRP, the NCUA created a re-securitization program (NGN Program) to
provide long-term funding for the Legacy Assets through the issuance of the NCUA Guaranteed
Notes (NGNs) by trusts established for this purpose (NGN Trusts). The NGNs are guaranteed by
the NCUA, and backed by the full faith and credit of the United States.

The Legacy Assets from failed corporate credit unions consisted of over 2,000 investment
securities, secured by approximately 1.6 million residential mortgages, as well as commercial
mortgages and other assets. With the issuances of NGNs, the NCUA transferred the associated
Legacy Assets into the respective NGN Trusts.

1
   The TCCUSF is one of five funds established in the U.S. Treasury and administered by the NCUA Board. In addition to the TCCUSF, a
temporary fund, NCUA administers four permanent funds to include the National Credit Union Share Insurance Fund, the Operating
Fund, the Central Liquidity Facility and the Community Development Revolving Loan Fund. All five funds report under separate
financial statements.
2
   NCUSIF insures members’ accounts in insured credit unions up to the standard maximum share insurance amount.

                                                                 1
As part of the CSRP, the NCUA Board liquidated five corporate credit unions during 2010. The
assets and liabilities of the liquidated corporate credit unions were placed into asset management
estates, administered by the NCUA Board as the liquidating agent, through its Asset
Management and Assistance Center (AMAC), pursuant to applicable provisions of the Federal
Credit Union Act (FCU Act). To facilitate the resolution process, the NCUA Board chartered
four bridge corporate credit unions (Bridge Corporates) to purchase certain assets and assume
certain liabilities and member shares from the asset management estates. To the extent that the
liabilities and shares assumed exceeded the assets purchased by the Bridge Corporates, the asset
management estates issued promissory notes (Promissory Notes) to the Bridge Corporates for the
difference. Each Promissory Note was guaranteed by the NCUA and was primarily funded by
the TCCUSF. During 2011, the NCUA repaid the outstanding Promissory Notes and approved
the mergers of two Bridge Corporates.

In 2012, the NCUA Board completed the CSRP with the closing of the remaining two Bridge
Corporates. The TCCUSF continues to provide funding necessary for the continuation of the
NGN Program through 2021 and for AMAC to complete the wind down of the corporate credit
union asset management estates.

In 2013, the NCUA Board, as the liquidating agent of the corporate credit union asset
management estates, reached settlements with several banks, in connection with their sale of
mortgage-backed securities to the failed corporate credit unions (Settlements).

In April 2013, NCUA announced a settlement with Bank of America and its subsidiaries for
$165 million.

In November 2013, NCUA announced that, along with the U.S. Department of Justice and other
governmental-related plaintiffs, it was part of a $13.0 billion settlement with JPMorgan Chase
and affiliated companies. NCUA’s share of the recoveries, on behalf of the failed corporate
credit unions was $1.4 billion.

With the Settlements and the continued improvement in the performance of the Legacy Assets
underlying the NGN Program, insured credit unions are not currently expected to be charged
another special premium assessment. Should adverse conditions develop, such as a severe
economic downturn, the NCUA Board may impose a special premium assessment.

Organizational Structure

The NCUA Board authorized staff to establish the corporate governance structure of the
TCCUSF. The NCUA Board delegated operational oversight and provided authority to staff to
borrow funds, invest and approve assistance to corporate credit unions, subject to limitations.

The NCUA Board created the NGN Securities Management and Oversight Committee to ensure
that NCUA meets all its statutory and legal obligations under the NGN Program. The Directors
of the Office of Examination & Insurance, AMAC, and the Office of the Chief Financial Officer
comprise the committee.

The Director of the Office of Examination & Insurance serves as the Chair of the NGN
Securities Management and Oversight Committee and other NCUA offices provide operational
and administrative services to the TCCUSF. AMAC administers the asset management estates,
                                                   2
collects obligations due to the closed corporate credit unions, monetizes assets and distributes
amounts to claimants, including the TCCUSF, in accordance to their respective regulatory pay-
out priorities.

II. Performance Goals, Objectives, and Results

The focus of NCUA’s efforts in supervising corporate credit unions is to ensure their ongoing
safety and soundness as well as their continued ability to provide uninterrupted services to the
consumer credit unions that they serve.

NCUA’s mission, as outlined in the NCUA 2011-2014 Strategic Plan, is to “provide through
regulation and supervision a safe and sound credit union system which promotes confidence in
the national system of cooperative credit.” NCUA’s annual objectives related to corporate credit
unions in 2013 were to continue to monitor the corporate credit union system and to continue
transparency of the NGN Program.

NCUA successfully met these goals for 2013. Corporate credit unions maintained sufficient
liquidity to meet member needs and maintained adequate capital to meet the NCUA’s Prompt
Corrective Action requirements.

NCUA continued transparency on the NGN Program through the distribution of press releases
and the periodic update of Web pages devoted to the NGN Program. Information on the
NGN Program is available on NCUA’s website.

Operational success in meeting the goals of NCUA’s Strategic Plan to “promote confidence in
the national system of cooperative credit” is further evidenced by the continued improvement in
the financial condition of the TCCUSF. In 2013 and 2012, the TCCUSF maintained sufficient
liquidity to meet its obligations. During the same period, the TCCUSF’s deficit, as represented
by its negative Net Position, continued to decline consistent with the design of the TCCUSF. In
2013, the deficit in Net Position improved from $3.5 billion to $142.2 million, from the
Settlements, the favorable change in the anticipated future cash flows of the Legacy Assets in the
NGN Program and the special premium assessment from insured credit unions.

During 2012, the TCCUSF was principally responsible for three initiatives and related
guarantees to stabilize the corporate credit union system: the Temporary Corporate Credit Union
Share Guarantee Program (TCCUSGP), the Temporary Corporate Credit Union Liquidity
Guarantee Program (TCCULGP), and the NGNs. As of December 31, 2012, the TCCUSF had
no further obligations under the TCCUSGP and TCCULGP, due to expiration of related
guarantees. As of December 31, 2013 and 2012, NCUA estimated no insurance losses from the
NGN Program.

While NCUA estimated no net insurance losses for the TCCUSF at December 31, 2013, since
inception, the TCCUSF has made approximately $9.4 billion in gross guarantee payments. At
December 31, 2013, NCUA estimated that another $2.3 billion may ultimately be recovered from
the corporate credit union asset management estates. Actual amounts recovered could differ
from this estimate as the NGN Program continues and the corporate credit union asset
management estates are resolved.



                                                    3
Looking forward, the NCUA 2014-2017 Strategic Plan shifts the emphasis of performance goals
from improving the health of credit unions to ensuring a “sustainable credit union system.”
Performance goals include maintaining strong corporate credit union leverage ratios, examining
all federal credit unions annually, and examining federally-insured state-chartered credit unions
regularly, based on their size. Specific performance goals will be set in the NCUA Annual
Performance Plan for 2014.

III. Financial Statement Analysis

During 2013, the financial condition of the TCCUSF improved as seen by the improvement of its
deficit Net Position from $3.5 billion to $142.2 million. This $3.4 billion change is primarily
explained by the $2.5 billion Reduction of Insurance Losses and $694.2 million collected in
Special Premium Revenue. In 2013, the TCCUSF maintained sufficient liquidity to meet its
obligations and paid down $2.2 billion of Borrowings from the U.S. Treasury.

Summarized financial information is presented below for the TCCUSF.

                      Summarized Financial Information (in thousands)
                                                     December 31, 2013 December 31, 2012
Total Assets                                             $ 2,761,032      $ 1,610,008
Receivables from Asset Management Estates, Net             2,304,840        1,139,081
Fund Balance with Treasury and Investments, Net              353,553          377,901
Borrowings from the U.S. Treasury                          2,900,000        5,100,000
Insurance and Guarantee Program Liabilities                        -                -
Net Position                                               (142,244)      (3,494,730)
Net Income from Operations                                 3,256,180        1,669,388
Special Premium Revenue                                      694,199          792,493
Guarantee Fee Revenue                                         67,161           84,812
Reduction of Insurance Losses                              2,508,426          806,508

Balance Sheet Highlights
Total Assets grew by $1.2 billion in 2013, primarily as a result of increases in TCCUSF’s claims
on Receivables from Asset Management Estates, Net. Reflected in the increase is the favorable
change in the anticipated future cash flows of the Legacy Assets in the NGN Program and
recoveries from the asset management estates due to the Settlements.

During 2013, the TCCUSF did not borrow any funds from the U.S. Treasury. The TCCUSF
used the Settlements, Special Premium Revenue and other sources to repay $2.2 billion during
2013, resulting in an outstanding balance of $2.9 billion as of December 31, 2013.

Insurance and Guarantee Program Liabilities, also referred to as contingent liabilities, were $0 at
December 31, 2013 and 2012. As of December 31, 2012, all guarantees under the TCCUSGP
and TCCULGP had expired. While there was no contingent liability as of December 31, 2013
and 2012, the TCCUSF continues to have ongoing guarantee obligations for the NGN Program.
The contingent liability balance may increase in the future, depending on future analyses of the
value of Legacy Assets in the NGN Program.




                                                    4
Statement of Net Cost Highlights
Net Income from Operations was $3.3 billion for 2013, as compared to $1.7 billion for 2012. In
2013, net income is primarily due to the $2.5 billion Reduction of Insurance Losses. This
reduction is mainly due to the favorable change in future cash flows of the Legacy Assets in the
NGN Program, as well as an increase in expected recoveries from the asset management estates
due to the Settlements. Net income also includes $694.2 million for Special Premium Revenue
and $67.2 million in Guarantee Fee Revenues.

Statement of Changes in Net Position Highlights
Cumulative Results of Operations increased by $3.4 billion in 2013. This increase was due to
Net Income from Operations of $3.3 billion and a distribution receivable from the NCUSIF of
$95.3 million.

As of December 31, 2013 and 2012, the TCCUSF recorded an estimate for the distribution
receivable from the NCUSIF, pursuant to the FCU Act, to bring the NCUSIF equity ratio to its
normal operating level of 1.30% in the amounts of $95.3 million and $88.1 million, respectively.

Statement of Budgetary Resources Highlights
Activity affecting budget totals of the overall Federal Government is recorded in the TCCUSF’s
Statements of Budgetary Resources. The TCCUSF’s gross outlays of $22.4 million in 2013
decreased from $3.6 billion for 2012 primarily due to lower payments made in 2013 as compared
to 2012. In 2012, the TCCUSF made guarantee payments to extinguish Medium Term Notes
(MTNs) issued by corporate credit unions. The TCCUSF’s unobligated balance, or budget
available to create future obligations, increased $2.2 billion due to the repayment of borrowings
from the U.S. Treasury during 2013.

Fiduciary Activity Highlights
As the TCCUSF was established to accrue the losses of the corporate credit union system during
the credit crisis and to recover such losses over time, the TCCUSF’s financial results are driven
by the financial performance of the corporate credit union asset management estates, which
includes the Settlements and the NGN Program. The financial results of the corporate credit
union asset management estates and the NGN Trusts in the NGN Program are not presented in
the results of the TCCUSF as described above, but are instead presented as fiduciary activities of
the TCCUSF in accordance with the Federal Accounting Standards Advisory Board’s Statement
of Federal Financial Accounting Standard No. 31, Accounting for Fiduciary Activities, and are
included in the notes to the TCCUSF financial statements.

NGN Program
The outstanding principal balance of the NGNs was $17.5 billion and $21.2 billion as of
December 31, 2013 and 2012, respectively. This amount represents the maximum potential
future guarantee payments that NCUA could be required to make without consideration of future
expected cash flows from underlying Legacy Assets and possible recoveries under the terms of
the guarantee or from the asset management estates. The losses from the guarantee of NGNs are
expected to be significantly less than the above maximum potential exposure, and such losses are
based on estimated guarantee payments, net of estimated guarantor reimbursements, if any, from
the NGN Trusts and expected recoveries, if any, from the asset management estates. The
NCUA's estimate of the expected recovery from the asset management estates reflects the
NCUA's expectations and assumptions about the recovery value of the asset management estates'
assets, which include economic residual interests in the NGN Trusts.

                                                    5
The NCUA's estimated guarantee payments, guarantor reimbursements and the recovery values,
if any, of the asset management estates' economic residual interests in the NGN Trusts are
derived using an external model that distributes estimated cash flows of the Legacy Assets
transferred to the NGN Trusts in the priority of payments pursuant to the governing documents
of each NGN Trust. The estimated cash flows incorporate the NCUA's assumptions about
discount rates.

The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived
from the external model that incorporates the NCUA's expectations and assumptions about the
estimated cash flows from the collateral that comprise the Legacy Assets, and the priority of
payments and estimated cash flows of the Legacy Assets pursuant to the governing documents
for the respective Legacy Assets. The external model produces estimated cash flows of
collateral underlying the Legacy Assets by incorporating the NCUA's expectations and
assumptions about prepayments, defaults and loss severity of the collateral consisting of
residential and commercial mortgage loans and other assets. Assumptions about prepayments,
defaults, and loss severity are developed based on the characteristics and historical performance
of the collateral, as well as assumptions about macroeconomic variables such as unemployment
rates, housing prices, and interest rates.

The table below represents the composition of Legacy Assets collateralizing the thirteen NGN
Trusts, with an aggregate unpaid principal balance of $23.9 billion and $28.2 billion and
recovery value of approximately $19.8 billion and $21.3 billion as of December 31, 2013 and
2012, respectively.
                                                            Based on Recovery Value                  Based on Unpaid Principal Balance
                                     1
Asset Type and Credit Rating                                2013                    2012                   2013               2012
           AAA                                                       0%                      1%                     0%                 1%
           AA                                                        1%                      5%                     1%                 3%
           A                                                         4%                      3%                     3%                 2%
 RMBS                                                 73%                      71%                    76%                77%
           BBB                                                       4%                      3%                     4%                 2%
           Below Investment Grade                                   91%                     88%                    92%                92%
           NA                                                        0%                      0%                     0%                 0%
           AAA                                                      18%                     18%                    18%                19%
           AA                                                       30%                     21%                    30%                21%
           A                                                        23%                     36%                    23%                34%
 CMBS                                                 21%                      21%                    17%                15%
           BBB                                                      11%                     11%                    11%                11%
           Below Investment Grade                                   18%                     14%                    18%                15%
           NA                                                        0%                      0%                     0%                 0%
           AAA                                                       1%                      3%                     1%                 2%
           AA                                                       37%                     35%                    25%                25%
       2   A                                                        39%                     40%                    26%                29%
  ABS                                                  3%                      4%                     4%                 4%
           BBB                                                       8%                      9%                     5%                 7%
           Below Investment Grade                                   15%                     13%                    43%                37%
           NA                                                        0%                      0%                     0%                 0%
 Agency Agency                                         2%          100%        2%          100%       2%          100%   2%          100%
           AAA                                                       0%                      0%                     0%                 0%
           AA                                                        4%                      2%                     4%                 2%
           A                                                        13%                     10%                    11%                 8%
Corporate                                              1%                      2%                     1%                 2%
           BBB                                                      45%                     28%                    36%                22%
           Below Investment Grade                                   35%                     20%                    32%                18%
           NA                                                        3%                     40%                    17%                50%
Percentages may not total 100% due to rounding.
1
    Credit rating is based on the lowest rating published by Standard & Poor's, Moody’s, or Fitch, where available.
2
    The collateral underlying the ABS included in the tables above is primarily student loans.


Due to uncertain systemic risks and the possibility of variances from historical data, actual losses
could differ materially from the contingent liabilities, if any, recorded by the TCCUSF.

                                                                                    6
Performance measures are designed to enable management and the NCUA’s stakeholders to
assess programs and financial performance and to use this information to make improvements.
Performance measures have inherent limitations, including the change over time in the
correlation of cause and effect. A strong correlation between cause and effect in one period may
not continue into the next. In addition, performance measures may not address systemic risks,
which can have a significant effect on future results.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of the TCCUSF. While the statements have been prepared from the books and
records of the TCCUSF in accordance with U.S. generally accepted accounting principles
(GAAP) for Federal entities and the formats prescribed by the Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources that are prepared from the same books and records. The statements should
be read with the realization that they are for a component of the U.S. Government, a sovereign
entity.

Liquidity Risk and Capital Resources

For liquidity, the TCCUSF maintains cash in its Fund Balance with Treasury (FBWT) as well as
investments in overnight U.S. Treasury Securities, which are available in the event of urgent
liquidity needs.

      2013 and 2012 Fund Balance with Treasury and Investments (in thousands)
                                           December 31, 2013      December 31, 2012
   Fund Balance with Treasury                    $     2,496          $     1,425
   U.S. Treasury Securities, Overnight               351,057              376,476

The FBWT account is increased by amounts collected from special premium assessments,
guarantee fee income, borrowing from the U.S. Treasury, interest income on investments in
U.S. Treasury Securities, distributions from the NCUSIF, and any recoveries from the asset
management estates including settlement proceeds. The FBWT account is decreased by amounts
expended in support of stabilizing the corporate credit union system, including guarantee
payments, repayment of borrowings from the U.S. Treasury and related interest payments, and
purchases of U.S. Treasury Securities.

The TCCUSF is a revolving fund in the U.S. Treasury and has access to sufficient funds to meet
its obligations, including its Insurance and Guarantee Program Liabilities.

The TCCUSF has multiple sources of funding including:
    special premium assessments on insured credit unions, as necessary;
    borrowings from the U.S. Treasury; and
    distributions from the NCUSIF, as provided by the FCU Act.

Special Premium Assessments
In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382
(Clarification Act), amended the FCU Act by clarifying NCUA’s authority to assess a premium
against credit unions not only to repay TCCUSF advances but also to make TCCUSF
                                                    7
expenditures without borrowing from the U.S. Treasury. The Clarification Act permits the
NCUA Board to assess a special premium with respect to each insured credit union in an
aggregate amount that is reasonably calculated to make any pending or future TCCUSF
expenditures, in addition to existing authority to make assessments to repay U.S. Treasury
advances. The Clarification Act also states that the NCUA Board must take into consideration
any potential impact on credit union earnings that such an assessment may have and requires the
premium be paid not later than 60 days after the date of the assessment.

Borrowing Authority from the U.S. Treasury
The TCCUSF has $6.0 billion in maximum statutory borrowing authority, shared with the
NCUSIF, from the U.S. Treasury. As of December 31, 2013 and 2012, the TCCUSF had
$2.9 billion and $5.1 billion in borrowings outstanding from the U.S. Treasury, respectively; the
NCUSIF had no borrowings outstanding. As a result, the TCCUSF had $3.1 billion and $0.9
billion, respectively, in available borrowing authority, shared with the NCUSIF. The estimated
losses and liquidity needs of the TCCUSF are based on the NCUA's expectations and
assumptions about the resolution of failed corporate credit unions, including the disposition and
recovery value of their assets. Actual losses of the TCCUSF, including the TCCUSF's funding
needs, could differ from those estimates. Consequently, additional borrowing reduces funds
available from this source.

Distributions from the NCUSIF
In accordance with Section 202(c)(3) of the FCU Act, Distributions from Fund Required, the
NCUA Board shall effect a pro rata distribution from the NCUSIF to insured credit unions after
each calendar year, if: (i) any loans to the NCUSIF from the Federal Government, and any
interest on those loans, have been repaid; and (ii) the NCUSIF’s equity ratio exceeds the normal
operating level, as defined, of 1.3%; and (iii) the NCUSIF’s available assets ratio, as defined,
exceeds 1.0%. The amount of distribution shall equal the maximum possible amount that does
not reduce the NCUSIF’s equity ratio below the normal operating level of 1.3% and does not
reduce the NCUSIF’s available assets ratio below 1.0%. In any year that the TCCUSF has an
outstanding borrowing from the U.S. Treasury, the NCUA Board must make the distribution to
the TCCUSF rather than to insured credit unions.

IV. Systems, Controls and Legal Compliance

The TCCUSF was created by Public Law 111 – 22, Helping Families Save Their Homes Act of
2009, enacted May 20, 2009. NCUA, including the TCCUSF, is exempt from requirements
under the Federal Credit Reform Act of 1990 (2 U.S.C. §661e(a)(1)). The TCCUSF may make
expenditures only in connection with the conservatorship, liquidation, or threatened
conservatorship or liquidation of a corporate credit union. Governing legislation specified that
the TCCUSF would close 90 days after the seven year anniversary of its first borrowing from the
U.S. Treasury, which was June 25, 2009. With the concurrence of the U.S. Treasury and in
accordance with the FCU Act, the TCCUSF’s closing date was extended to June 30, 2021.

Internal controls should be designed to provide reasonable assurance regarding prevention or
prompt detection of unauthorized acquisition, use, or disposition of assets. The Federal
Manager’s Financial Integrity Act (FMFIA) requires agencies to establish management controls
over their programs and financial systems. Accordingly, NCUA management is responsible for
establishing and maintaining effective internal controls and financial management systems that
meet the objectives of FMFIA, which include safeguarding assets and compliance with
applicable laws and regulations. NCUA managers monitor and assess their relevant internal
                                                   8
controls and report on their assessment. This allows NCUA management to provide reasonable
assurance that internal controls are operating effectively. NCUA is in compliance with FMFIA
as well as all applicable laws such as the Prompt Payment Act and the Debt Collection and
Improvement Act. As required by the Improper Payments Elimination and Recovery Act,
NCUA determined that the TCCUSF’s programs are not susceptible to a high risk of significant
improper payments.

As required by the Federal Information Security Management Act (FISMA), NCUA develops,
documents, and implements an agency-wide program to provide information privacy and
security (management, operational and technical security controls) for the information and
information systems that support the operations of the agency, including those provided or
managed by another agency, contractor, or other source.




                                                 9
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration,

Report on the Financial Statements

We have audited the accompanying financial statements of the National Credit Union Administration
Temporary Corporate Credit Union Stabilization Fund (TCCUSF), which comprise the balance sheets as of
December 31, 2013 and 2012, and the related statements of net cost, changes in net position, and
statements of budgetary resources for the years then ended, and the related notes to the financial
statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Temporary Corporate Credit Union
Stabilization Fund as of December 31, 2013 and 2012, and its net costs, changes in net position, and
budgetary resources for the years then ended in accordance with U.S. generally accepted accounting
principles.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Overview and Required
Supplementary Information be presented to supplement the basic financial statements. Such information,
although not a part of the basic financial statements, is required by the Federal Accounting Standards
Advisory Board who considers it to be an essential part of financial reporting for placing the basic financial
statements in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the basic financial statements, and other knowledge we obtained during our audits of the
basic financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.

Other Reporting Required by Government Auditing Standards

Internal Control Over Financial Reporting
In planning and performing our audit of the financial statements, we considered TCCUSF’s internal control
over financial reporting (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but not for the purpose
of expressing an opinion on the effectiveness of the TCCUSF’s internal control. Accordingly, we do not
express an opinion on the effectiveness of the TCCUSF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.
Compliance and Other Matters
As part of obtaining reasonable assurance about whether the TCCUSF’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the TCCUSF’s internal control
or compliance. Accordingly, this communication is not suitable for any other purpose.




March 14, 2014
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2013 AND 2012
(Dollars in thousands)

                                                                                 2013               2012
ASSETS
INTRAGOVERNMENTAL
   Fund Balance with Treasury (Note 2)                                       $        2,496     $        1,425
   Investments, Net - U.S. Treasury Securities (Note 3)                             351,057            376,476
   Accounts Receivable - Due from the National
     Credit Union Share Insurance Fund                                                  3,910              690
   Other - Distribution Receivable from the National Credit
     Union Share Insurance Fund (Note 5)                                             95,291             88,090
       Total Intragovernmental Assets                                               452,754            466,681

PUBLIC
  Accounts Receivable - Special Premium Assessments from Insured
   Credit Unions, Net (Note 4)                                                            19                  8
  Accounts Receivable - Guarantee Fee on National Credit Union
   Administration Guaranteed Notes, Net (Note 4)                                      3,419              4,238
  Other - Receivables from Asset Management Estates, Net (Note 6)                 2,304,840          1,139,081
     Total Public Assets                                                          2,308,278          1,143,327
TOTAL ASSETS                                                                 $    2,761,032     $    1,610,008

LIABILITIES
INTRAGOVERNMENTAL
   Debt - Borrowings from the U.S. Treasury (Note 7)                         $    2,900,000     $    5,100,000
   Other - Accrued Interest Payable to the U.S. Treasury (Note 7)                     2,358              3,901
      Total Intragovernmental Liabilities                                         2,902,358          5,103,901
PUBLIC
  Accounts Payable                                                                      828                723
  Other Liabilities                                                                      90                114
  Other - Insurance and Guarantee Program Liabilities (Note 8)                            -                  -
     Total Public Liabilities                                                           918                837
TOTAL LIABILITIES                                                                 2,903,276          5,104,738
Commitments and Contingencies (Note 8)

NET POSITION
  Cumulative Result of Operations (Note 1)                                         (142,244)         (3,494,730)
     Total Net Position                                                            (142,244)         (3,494,730)
TOTAL LIABILITIES AND NET POSITION                                           $    2,761,032     $     1,610,008

The accompanying notes are an integral part of these financial statements.




                                                                    13
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF NET COST
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(Dollars in thousands)

                                                                                 2013               2012

GROSS COSTS
Interest Expense on Borrowings (Note 7)                                      $          8,288   $          6,601
Reduction of Insurance Losses
    Reserve Expense (Note 8)                                                               -          (237,935)
    AME Receivable Bad Debt Expense (Note 6)                                      (2,508,426)         (568,573)
Imputed Costs                                                                          1,015             1,897
Fee on Early Retirement of Borrowings from the U.S. Treasury (Note 7)                    568                25
Administrative Expenses                                                                3,946             6,238
     Total Gross Costs                                                            (2,494,609)         (791,747)

LESS EARNED REVENUES
Special Premium Revenue                                                            (694,199)          (792,493)
Guarantee Fee Revenue - National Credit Union Administration
  Guaranteed Notes                                                                  (67,161)           (80,511)
Guarantee Fee Revenue - Temporary Corporate Credit Union
  Liquidity Guarantee Program                                                             -             (4,301)
Interest Revenue - Investments                                                         (211)              (336)
     Total Earned Revenues                                                         (761,571)          (877,641)

NET (INCOME) FROM OPERATIONS                                                 $    (3,256,180)   $    (1,669,388)

The accompanying notes are an integral part of these financial statements.




                                                                    14
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF CHANGES IN NET POSITION
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(Dollars in thousands)

                                                                                 2013                2012

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                           $    (3,494,730)    $    (5,254,105)

BUDGETARY FINANCING SOURCES
 Other - Distribution Receivable from the National Credit Union
  Share Insurance Fund (Note 5)                                                         95,291              88,090

OTHER FINANCING SOURCES
 Imputed Financing                                                                       1,015               1,897
    Total Financing Sources                                                             96,306              89,987

Net Income from Operations                                                        3,256,180           1,669,388
Net Change                                                                        3,352,486           1,759,375


CUMULATIVE RESULTS OF OPERATIONS                                                   (142,244)          (3,494,730)

NET POSITION                                                                 $     (142,244)     $    (3,494,730)

The accompanying notes are an integral part of these financial statements.




                                                                   15
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF BUDGETARY RESOURCES
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(Dollars in thousands)

                                                                                     2013                 2012
BUDGETARY RESOURCES (Notes 10, 11, 12, and 14)
Unobligated balance, brought forward, January 1                                  $    1,359,863       $    3,058,245
Borrowing authority (mandatory)                                                       2,200,000              300,000
Spending authority from offsetting collections (mandatory)
  Collected                                                                            2,109,923           1,848,467
  Change in receivables from federal sources                                               3,220                 690
  Anticipated nonexpenditure transfer                                                     95,291              88,090
  Permanently not available                                                           (2,200,000)           (300,000)
TOTAL BUDGETARY RESOURCES                                                        $     3,568,297      $    4,995,492

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                             $          21,743    $    3,635,629
Unobligated balance, end of year:
  Exempt from apportionment                                                           3,546,554            1,359,863
Total unobligated balance, end of year                                                3,546,554            1,359,863
TOTAL STATUS OF BUDGETARY RESOURCES                                              $    3,568,297       $    4,995,492

CHANGE IN OBLIGATED BALANCE
Unpaid Obligations:
Unpaid obligations, brought forward, January 1                                   $        6,817       $         5,108
Obligations incurred                                                                     21,743             3,635,629
Outlays (gross)                                                                         (22,361)           (3,633,920)
  Unpaid obligations, end of year                                                $        6,199       $         6,817
Uncollected payments:
Uncollected customer payments from federal sources, brought forward, January 1   $            (690)   $             -
Change in uncollected customer payments from Federal sources                                (3,220)              (690)
  Uncollected customer payments from Federal sources, end of year                $          (3,910)   $          (690)

Obligated balance, start of year (net)                                           $           6,127    $          5,108
Obligated balance, end of year (net)                                             $           2,289    $          6,127

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (mandatory)                                              $     2,208,434      $     1,937,247
Actual offsetting collections (mandatory)                                             (2,109,923)          (1,848,467)
Change in uncollected customer payments from Federal sources (mandatory)                  (3,220)                (690)
Anticipated offsetting collections (mandatory)                                           (95,291)             (88,090)
BUDGET AUTHORITY, NET (MANDATORY)                                                $             -      $             -

Outlays, gross (mandatory)                                                       $        22,361      $     3,633,920
Actual offsetting collections (mandatory)                                             (2,109,923)          (1,848,467)
Outlays, net (discretionary and mandatory)                                            (2,087,562)           1,785,453
AGENCY OUTLAYS, NET (MANDATORY)                                                  $    (2,087,562)     $     1,785,453


The accompanying notes are an integral part of these financial statements.
                                                                    16
 NATIONAL CREDIT UNION ADMINISTRATION
 TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

 NOTES TO FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  Reporting Entity

  The Temporary Corporate Credit Union Stabilization Fund (TCCUSF) was created by Public
  Law 111-22, Helping Families Save Their Homes Act of 2009 (Helping Families Act), enacted
  May 20, 2009. The TCCUSF was established as a revolving fund in the Treasury of the United
  States (U.S. Treasury) under the management of the National Credit Union Administration
  (NCUA) Board (NCUA Board). The purposes of the TCCUSF are to accrue the losses of the
  corporate credit union (CCU) system and, over time, assess the credit union system for the
  recovery of such losses.

  In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382
  (Clarification Act), amended the Federal Credit Union Act (FCU Act) by clarifying NCUA’s
  authority to assess a premium against federally insured (insured) credit unions not only to
  repay TCCUSF advances but also to make TCCUSF expenditures without borrowing from the
  U.S. Treasury.

  The TCCUSF may make expenditures only in connection with the conservatorship, liquidation,
  or threatened conservatorship or liquidation of a CCU. Governing legislation specified that the
  TCCUSF would terminate 90 days after the seven year anniversary of its first borrowing from
  the U.S. Treasury, which was June 25, 2009. With the concurrence of the U.S. Treasury and in
  accordance with the FCU Act, the TCCUSF’s termination date was extended to June 30, 2021.

  On June 18, 2009, the NCUA Board approved actions to legally obligate the TCCUSF for the
  costs of stabilizing the CCU system. These actions legally obligated the TCCUSF for all
  liabilities arising from the Temporary Corporate Credit Union Share Guarantee Program
  (TCCUSGP) and the Temporary Corporate Credit Union Liquidity Guarantee Program
  (TCCULGP). Under the TCCUSGP, the NCUA guaranteed the entire share amount that
  member credit unions had on deposit with CCUs, subject to certain limitations. Under the
  TCCULGP, the NCUA guaranteed the timely payment of principal and interest on certain
  unsecured debt of participating CCUs. The funding for the NCUA’s guarantees under the
  TCCUSGP and TCCULGP was primarily provided by the TCCUSF. The TCCUSGP ended
  December 31, 2012. Also, the TCCULGP had no remaining guarantees on unsecured debt of
  participating CCUs as of December 31, 2012.

  Fiduciary Responsibilities
  Fiduciary activities are the collection or receipt, management, protection, accounting,
  investment, or disposition by the Federal Government of cash or other assets, in which non-
  federal individuals or entities have an ownership interest that the Federal Government must
  uphold.

                                                  17
On September 24, 2010, the NCUA Board announced the Corporate System Resolution
Program (CSRP). The CSRP is a multi-stage plan for stabilizing the CCU system, providing
short-term and long-term funding to resolve a portfolio of residential mortgage-backed
securities, commercial mortgage-backed securities, other asset-backed securities and corporate
bonds (collectively referred to as the Legacy Assets) held by failed CCUs, and establishing a
new regulatory framework for CCUs. Under the CSRP, the NCUA created a re-securitization
program to provide long-term funding for the Legacy Assets through the issuance of the
NCUA Guaranteed Notes (NGNs) by the trusts established for this purpose (NGN Trusts).
The NGNs are guaranteed by the NCUA, and backed by the full faith and credit of the United
States Government. The principal funding for the NCUA’s guarantees on the NGNs is
provided by the TCCUSF. To the extent that required funding for the guarantees exceeds the
funds available from the TCCUSF, the National Credit Union Share Insurance Fund (NCUSIF)
will be obligated to provide the needed funds.

As part of the CSRP, the NCUA Board liquidated five CCUs during 2010. The assets and
liabilities of liquidated CCUs were placed into Asset Management Estates (AMEs), and are
administered by the NCUA Board as liquidating agent, through its Asset Management and
Assistance Center (AMAC), pursuant to applicable provisions of the Federal Credit Union Act
(FCU Act). To facilitate the resolution process, the NCUA Board chartered four bridge
corporate credit unions (Bridge Corporates) to purchase certain assets and assume certain
liabilities and member shares from the AMEs. The Bridge Corporates were private legal
entities. While legally separate from the TCCUSF and therefore not part of the reporting
entity, they remained in the conservatorship of the NCUA Board. The U.S. Central Bridge
Corporate Federal Credit Union (USC Bridge) and Western Bridge Corporate Federal Credit
Union (Western Bridge) were placed into liquidation during 2012. The two other Bridge
Corporates were resolved through unassisted mergers with other CCUs in 2011. When
establishing the Bridge Corporates, to the extent that the liabilities and shares assumed
exceeded the assets purchased by the Bridge Corporates, the AMEs issued promissory notes
(Promissory Notes) to the Bridge Corporates for the difference. Each Promissory Note was
guaranteed by the NCUA through the TCCUSF. All Promissory Notes have since been paid in
full.

The NCUA’s AMAC conducts liquidations and performs management and recovery of assets
for failed credit unions, including failed CCUs and Bridge Corporates placed in liquidation.
The assets and liabilities of the AMEs and NGN Trusts are considered fiduciary in accordance
with the Statement of Federal Financial Accounting Standards (SFFAS) No. 31, Accounting for
Fiduciary Activities (SFFAS No. 31). Fiduciary assets are not assets of the Federal
Government and therefore are not recognized on the Balance Sheet. Additionally, NCUA
entity assets are non-fiduciary.

Sources of Funding
The TCCUSF has multiple sources of funding, including special premium assessments,
investment interest income, guarantee fees, and borrowings from the U.S. Treasury shared with
the NCUSIF. The NCUA Board may assess premiums to all insured credit unions, as provided
by the FCU Act.

The TCCUSF may also receive additional funding from the NCUSIF under certain
circumstances. As part of the Helping Families Act, when the TCCUSF has an advance
(borrowing) outstanding from the U.S. Treasury and the NCUSIF would have otherwise paid a
distribution to insured credit unions, the NCUSIF is obligated to make distributions to the
                                                18
TCCUSF in lieu of distributions to the insured credit unions to the maximum amount possible
that does not reduce the NCUSIF’s equity ratio below the normal operating level, as defined,
of 1.3%, and does not reduce the NCUSIF’s available assets ratio, as defined, below 1.0%.

Basis of Presentation

The TCCUSF’s financial statements have been prepared from its accounting records in
accordance with standards promulgated by the Federal Accounting Standards Advisory Board
(FASAB). FASAB is designated by the American Institute of Certified Public Accountants as
the source of generally accepted accounting principles (GAAP) for federal reporting entities.
The format of the financial statements and footnotes are in accordance with the form and
content guidance provided in Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements, revised October 21, 2013.

Consistent with SFFAS No. 34, The Hierarchy of Generally Accepted Accounting Principles,
Including the Application of Standards Issued by the Financial Accounting Standards Board,
NCUA considers and where appropriate, applies Financial Accounting Standards Board
guidance for those instances where no applicable FASAB guidance is available.

Basis of Accounting

In its accounting structure, the TCCUSF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when
earned and expenses are recognized when incurred, without regard to the actual collection or
payment of cash.

Federal budgetary accounting recognizes the obligation of appropriations, borrowing
authorities, and other funds upon the establishment of a properly documented legal liability,
which may be different from the recording of an accrual-based transaction. The recognition of
budgetary accounting transactions is essential for compliance with legal controls over the use
of federal funds and compliance with budgetary laws.

The NCUA, including the TCCUSF, is exempt from requirements of the Federal Credit
Reform Act of 1990 (Section 661e(a)(1)).

Use of Estimates

The preparation of financial statements in conformity with GAAP for the Federal Government
requires management to make estimates and assumptions that affect the following:

      reported amounts of assets and liabilities;
      disclosure of contingent assets and liabilities at the date of the financial statements; and
      the amounts of revenues and costs reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and
assumptions include: (i) reserves for probable losses and contingencies related to Insurance and
Guarantee Program Liabilities; (ii) the amount and timing of recoveries, if any, related to any
claims paid in settlement of the guarantee liabilities; and (iii) allowance amounts established
related to reimbursements from AMEs for claims paid in settlement of the guarantee liabilities.

                                                  19
Fund Balance with Treasury

Fund Balance with Treasury (FBWT) is the aggregate amount of the TCCUSF’s accounts with
the Federal Government’s central accounts, from which the TCCUSF is authorized to make
expenditures and pay liabilities. The entire FBWT is a revolving fund type.

Investments

Investments represent non-marketable U.S. Treasury securities purchased and reported at par
value, which are overnight securities managed by the Bureau of the Fiscal Service (BFS).
Cash balances in FBWT may be invested in non-marketable U.S. Treasury securities.

Accounts Receivable

Accounts receivable represents the TCCUSF’s claims for payment from other entities. Gross
receivables are reduced to net realizable value by an allowance for doubtful accounts as further
discussed below. The TCCUSF’s accounts receivable has two components: Intragovernmental
and Public. Intragovernmental accounts receivable due from the NCUSIF represents activity
collected by the NCUSIF on behalf of the TCCUSF, but not yet transferred to the TCCUSF for
its use and benefit. Public accounts receivable represents outstanding balances of the special
premiums assessed to insured credit unions and guarantee fees associated with the NGNs, as
described herein.

Allowance for Doubtful Accounts
An allowance for doubtful accounts is the TCCUSF’s best estimate of the amount of losses in
an existing receivable. Based on an assessment of collectability, the TCCUSF calculates an
allowance on an individual account basis for public accounts receivable. An account may be
impaired or written off if it is probable that the TCCUSF will not collect all amounts
contractually due. No allowance is calculated for intragovernmental accounts receivable, as
these are deemed to be fully collectible.

Other - Distribution Receivable

The TCCUSF records a distribution receivable from the NCUSIF, per Section 217(e) of the
FCU Act, when the TCCUSF has an outstanding advance (borrowing) from the U.S. Treasury
and the NCUSIF is required to make a distribution. The NCUSIF is prohibited from making
the distribution to insured credit unions described in Section 202(c)(3) of the FCU Act and
instead must make its distribution to the TCCUSF.

Other - Receivables from Asset Management Estates, Net

Receivables from AMEs, Net include claims to recover payments made by the TCCUSF to
satisfy obligations to insured shareholders and other guaranteed parties and to recoup
administrative expenses paid on behalf of AMEs. A related allowance for loss represents the
difference between the funds disbursed and obligations incurred and the expected repayment,
when recognized, from the AMEs pursuant to the liquidation payment priorities set forth in
§709.5(b) of Title 12 of the Code of Federal Regulations Payout Priorities in Involuntary
Liquidation (12 CFR § 709.5(b)). Assets held by the AMEs are the main source of repayment
of the TCCUSF’s receivables from the AMEs. The recoveries from these AME assets are paid

                                                 20
to the TCCUSF as AME assets are monetized and to the extent a receivable is due for
guarantee obligations and administrative expenses.

The allowance for losses on receivables from AMEs is based on expected asset recovery rates
and is estimated based on several sources, including:

      actual or pending AME asset disposition data;
      asset valuation data based upon the performance, quality, and type of the assets in the
       portfolio;
      estimated liquidation costs based on information from recently failed credit unions;
      estimated AME specific administrative expenses based upon complexity and expected
       duration of the AME; and
      recoveries from the AMEs related to settlements.

Expected asset recovery rates are evaluated during the year and at the reporting date but remain
subject to uncertainties because of potential changes in economic and market conditions.

Debt – Borrowings from the U.S. Treasury

The amount of debt owed and payable by the TCCUSF is recognized at par value and consists
solely of borrowings from the U.S. Treasury, specifically through BFS.

Other - Accrued Interest Payable to the U.S. Treasury

Accrued interest payable represents interest expense incurred but unpaid on principal owed to
the U.S. Treasury on borrowings.

Insurance and Guarantee Program Liabilities and Contingencies

In accordance with SFFAS No. 5, Accounting for Liabilities of The Federal Government
(SFFAS No. 5), all federal insurance and guarantee programs, except social insurance and loan
guarantee programs, should recognize a liability for:

      unpaid claims incurred, resulting from insured events that have occurred as of the
       reporting date;
      a contingent liability when an existing condition, situation, or set of circumstances
       involving uncertainty as to possible loss exists, and the uncertainty will ultimately be
       resolved when one or more probable future events occur or fail to occur; and
      a future outflow or other sacrifice of resources that is probable.

The TCCUSF records a contingent liability for probable losses relating to CCUs under the
TCCUSGP and TCCULGP, as well as probable losses, if any, for the guarantees associated
with the NGNs. All guarantees under the TCCUSGP and TCCULGP expired as of December
31, 2012.

Liabilities for loss contingencies also arise from claims, assessments, litigation, fines, penalties
and other sources. These loss contingencies are recorded when it is probable that a liability has
been incurred and the amount of the assessment and/or remediation can be reasonably
estimated. Legal costs incurred in connection with loss contingencies are expensed as incurred
for any contingencies.
                                                   21
Net Position and Accumulated Deficit

The TCCUSF has an accumulated deficit in its net position primarily due to the Insurance and
Guarantee Program Liabilities, borrowings from the U.S. Treasury, and the allowance for
losses associated with the receivables from AMEs. As allowed under the TCCUSF’s enabling
legislation, and incorporated into the FCU Act as Section 217(g), the financial condition of the
TCCUSF may reflect a deficit. In accordance with Section 217(d) of the FCU Act, the
TCCUSF may assess special premiums to recover such losses.

Revenue Recognition

Exchange Revenue
Exchange revenues arise and are recognized when a Federal Government entity provides goods
and services to the public or to another Federal Government entity for a price. Exchange
revenue consists of special premium assessments, guarantee fee income, interest revenue, and
other fees.

Special Premium Assessments from Insured Credit Unions
Under the statutory authority provided by the Helping Families Act, the NCUA Board may
assess each insured credit union a special premium charge that shall be stated as a percentage
of its insured shares as represented on the insured credit union’s previous call report.

Guarantee Fees on Temporary Corporate Credit Union Liquidity Guarantee Program
For a fee, the NCUA guaranteed the timely payment of principal and interest on certain
unsecured debt of participating CCUs, principally funded through the TCCUSF.

Guarantee Fees on NCUA Guaranteed Notes
For a fee, the NCUA guarantees the timely payment of principal and interest on the NGNs,
principally funded through the TCCUSF.

Non-exchange Revenue
Non-exchange revenues are inflows of resources that the Federal Government demands or
receives by donation. Such revenues are recognized when a specifically identifiable, legally
enforceable claim to resources arises, to the extent that collection is probable (more likely than
not) and the amount is reasonably estimable.

Imputed Financing Sources

The TCCUSF records an imputed cost on the Statement of Net Cost and an offsetting imputed
financing source on the Statement of Changes in Net Position for CSRP administrative
expenses paid by the NCUA Operating Fund but not reimbursed by the TCCUSF.

Tax-Exempt Status

The TCCUSF is exempt from Federal income taxes under Section 501(c)(1) of the Internal
Revenue Code.



                                                  22
2. FUND BALANCE WITH TREASURY

  FBWT balances and status at December 31, 2013 and 2012, consisted of the following:

                                                                                   2013                                       2012
    (Dollars in thousands)
    Total Fund Balance with Treasury:
     Revolving Funds                                                     $                      2,496              $                    1,425

    Status of Fund Balance with Treasury:
     Unobligated Balance - Available                                     $                3,546,554                $               1,359,863
     Obligated Balance Not Yet Disbursed                                                      6,199                                    6,817
     Non-Budgetary FBWT Accounts                                                           (351,057)                                (376,476)
     Non-FBWT Budgetary Accounts                                                         (3,199,200)                                (988,779)
    Total                                                                $                      2,496              $                    1,425


  As a revolving fund, the FBWT is used for continuing business-like activities. The TCCUSF
  collects special premium assessments and guarantee fees, which in turn are invested in
  overnight U.S. Treasury securities. The proceeds are primarily held to cover liquidation
  activities, guarantee payments and other administrative expenses, without requirement for
  annual appropriations. FBWT contains monies available for future obligations as well as
  monies obligated for current activities. Non-budgetary FBWT Accounts, which consist of
  investments, reduce the status of fund balance. Non-FBWT Budgetary Accounts may consist
  of borrowing authority, nonexpenditure transfers, and changes in federal receivables. Funds
  not needed for immediate liquidity are invested in overnight U.S. Treasury securities.

  As of December 31, 2013 and 2012, there were no unreconciled differences between U.S.
  Treasury records and balances reported in the TCCUSF’s general ledger.

3. INVESTMENTS

  The TCCUSF invests in non-marketable daily overnight U.S. Treasury securities, which are
  purchased at par value. The cost and market value of U.S. Treasury securities were as follows:

  As of December 31, 2013 and 2012                                           Amortized
                                                          Amortization       (Premium)           Interest                            Other             Market Value
                                              Cost          Method            Discount          Receivable     Investments, Net    Adjustments          Disclosure
  (Dollars in thousands)

  Non-Marketable, par value, 12/31/2013   $     351,057              n/a $                - $                - $       351,057 $                 - $         351,057

  Non-Marketable, par value, 12/31/2012   $     376,476              n/a $                - $                - $       376,476 $                 - $         376,476

  Non-marketable securities as of December 31, 2013 exclude fiduciary assets of $301.0 million.




                                                                             23
4. ACCOUNTS RECEIVABLE

  Public – Accounts Receivable

  Special Premium Assessments from Insured Credit Unions
  As of December 31, 2013 and 2012, special premium assessments that had not been paid by
  insured credit unions totaled $18.7 thousand and $8.0 thousand, respectively.

  NGN Guarantee Fee Receivable
  For a fee, the NCUA guarantees the timely payment of principal and interest on the NGNs,
  principally through the TCCUSF. Guarantee fees on each NGN Trust are 35 basis points per
  year, payable monthly, on the outstanding balance of the NGNs. As of December 31, 2013 and
  2012, there were $3.4 million and $4.2 million in NGN guarantee fees receivable, respectively.

  Allowance for Doubtful Accounts
  The allowance for doubtful accounts on public accounts receivable was $0 as of December 31,
  2013 and 2012.

5. OTHER - DISTRIBUTION RECEIVABLE

  In accordance with Section 202(c)(3) of the FCU Act, Distributions from Fund Required, the
  NCUA Board shall effect a pro rata distribution from the NCUSIF to insured credit unions
  after each calendar year, if:
        (i)     any loans to the NCUSIF from the Federal Government, and any interest on those
                loans, have been repaid; and
        (ii)    the NCUSIF’s equity ratio exceeds the normal operating level, as defined, of
                1.3%; and
        (iii) the NCUSIF’s available assets ratio, as defined, exceeds 1.0%.

  The amount of distribution shall equal the maximum amount that does not reduce the
  NCUSIF’s equity ratio below the normal operating level, as defined, of 1.3%, and does not
  reduce the NCUSIF’s available assets ratio, as defined, below 1.0%. At the end of any year in
  which the TCCUSF has an outstanding advance from the U.S. Treasury, the NCUA Board
  must make the distribution to the TCCUSF rather than to insured credit unions.

  As of December 31, 2013 and 2012, the TCCUSF had an outstanding advance (borrowing)
  from the U.S. Treasury. As a result, as of December 31, 2013 and 2012, the TCCUSF had a
  distribution receivable due from the NCUSIF of $95.3 million and $88.1 million, respectively.

6. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2013 and 2012, the gross receivables from AMEs were $6.9 billion and
  $8.3 billion, and the related allowance for losses was $4.6 billion and $7.1 billion, for net
  receivables from AMEs of $2.3 billion and $1.1 billion, respectively. The net receivables from
  AMEs represent the TCCUSF's expected reimbursements from the AMEs for claims paid by
  the TCCUSF.

  The allowance for losses takes into account the NCUA’s assessment of expected recovery from
  the AMEs that reflects the NCUA's expectations and assumptions about the recovery value of
  the AMEs' assets, as further discussed under fiduciary activities in Note 13.
                                                  24
                                                 For the Year Ended     For the Year Ended
                                                 December 31, 2013      December 31, 2012
  (Dollars in thousands)
  Gross Receivables from AMEs                    $        6,923,452     $        8,266,119

  Allowance for Losses, beginning balance                  7,127,038             4,999,339
   AME Receivable Bad Debt Expense (Reduction)            (2,508,426)             (568,573)
   Increase in Allowance                                           -             2,696,272
  Allowance for Losses, ending balance                     4,618,612             7,127,038
  Receivables from AMEs, Net                     $        2,304,840     $        1,139,081



7. DEBT – BORROWINGS FROM U.S. TREASURY

  As of December 31, 2013 and 2012, the TCCUSF owed $2.9 billion and $5.1 billion to the
  U.S. Treasury, respectively. In 2013, the TCCUSF repaid $2.2 billion of borrowings, incurred
  interest expense of $8.3 million on outstanding principal, and paid fees of $567.9 thousand on
  the early retirement of debt. During 2012, the TCCUSF borrowed a total of $1.9 billion from
  the U.S. Treasury, repaid $300.0 million of borrowings, incurred interest expense of
  $6.6 million on outstanding principal, and paid fees of $25.0 thousand on the early retirement
  of debt. As of December 31, 2013 and 2012, accrued interest payable was $2.4 million and
  $3.9 million, respectively.

8. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  In 2012, the TCCUSF was principally responsible for three initiatives and related guarantees to
  stabilize the CCU system: TCCUSGP, TCCULGP, and NGNs. With the expiration of
  TCCUSGP and the TCCULGP during 2012, the TCCUSF was only responsible for the
  guarantees related to the NGNs in 2013.

  The NCUA’s guarantees on the NGNs are a direct result of the NCUA’s implementation of the
  CSRP. Pursuant to the FCU Act, the NCUA is authorized to assess insured credit unions for
  the recovery of any losses from these initiatives during the life of the TCCUSF.

  The NCUA uses both internal and external models to estimate contingent liabilities associated
  with the three guarantees, as discussed herein. As shown in the table below, the TCCUSF
  recorded no new contingent liabilities on the TCCUSF’s Balance Sheet as of December 31,
  2013 and 2012.




                                                     25
For the Years Ended December 31, 2012 and 2013
                                           TCCUSGP           TCCULGP           NGNs           TOTAL
(Dollars in thousands)

Beginning Balance, 1/1/2012              $     60,879 $         2,883,328 $           -   $    2,944,207
Reserve Expense (Reduction)                    (3,879)           (234,056)            -         (237,935)
Insurance Losses (Claims) Paid/Settled       (144,609)         (3,532,126)            -       (3,676,735)
Recoveries/Claims on AMEs                      87,609             882,854             -          970,463
Ending Balance, 12/31/2012                           -                 -              -                -

Reserve Expense (Reduction)                          -                 -              -                -
Insurance Losses (Claims) Paid/Settled               -                 -              -                -
Recoveries/Claims on AMEs                            -                 -              -                -
Ending Balance, 12/31/2013               $           -   $             -   $          -   $            -

A description of each TCCUSF initiative and the associated contingent liability is provided
below.

Temporary Corporate Credit Union Share Guarantee Program

The TCCUSGP was a guarantee of shares (excluding paid-in-capital and membership capital
accounts) at CCUs that began on January 28, 2009. The TCCUSGP protected the entire share
account of credit unions that were members of CCUs, subject to certain limitations. The
TCCUSGP expired on December 31, 2012.

CCUs participating in the TCCUSGP did not pay a fee to the TCCUSF directly attributable to
the guarantee. To fund any claims under this initiative, the TCCUSF was authorized to make
special premium assessments of insured credit unions and, if necessary, draw on available
borrowings from the U.S. Treasury. The TCCUSF's obligation to pay holders of guaranteed
shares arose only upon the liquidation of the participating CCU.

As discussed herein, five CCUs were liquidated during 2010, which resulted in the
establishment of four Bridge Corporates. Pursuant to the NCUA Board action, the
participation of these Bridge Corporates in the TCCUSGP was approved. Each Bridge
Corporate entered into a Letter of Understanding and Agreement with the NCUA to extend the
TCCUSGP to the Bridge Corporates’ shares that were assumed from the AMEs. As a result,
the TCCUSF was obligated for any liability arising from insured shares equal to the Standard
Maximum Share Insurance Amount (SMSIA), as defined, and from shares in excess of the
SMSIA guaranteed under the TCCUSGP. Two Bridge Corporates were resolved through
unassisted mergers with other CCUs in 2011. USC Bridge and Western Bridge were placed
into liquidation during 2012.

The TCCUSF had no Insurance and Guarantee Program Liability associated with the
TCCUSGP as of December 31, 2012, and as the program expired on that date, there are no
subsequent contingencies for that program. Further, there were no recognized contingencies by
NCUA for CCU insured shares at December 31, 2012.




                                                              26
Temporary Corporate Credit Union Liquidity Guarantee Program

The TCCULGP was created in October 2008 to provide a guarantee on certain unsecured debt
of participating CCUs. Under the terms of the TCCULGP, for a fee, the NCUA guaranteed the
timely payment of principal and interest on certain unsecured debt of participating CCUs
issued prior to September 30, 2011, principally funded through the TCCUSF.
In 2009, U.S. Central Federal Credit Union and Western Corporate Federal Credit Union
issued Medium Term Notes (MTNs) to the public debt market. These MTNs were guaranteed
by the NCUA under the TCCULGP. In 2012, the NCUA made payments under the
TCCULGP related to the MTNs. As of December 31, 2012, all outstanding MTNs were paid,
and the TCCUSF had no remaining guarantees on unsecured debt of participating CCUs under
the TCCULGP.

NCUA Guaranteed Notes

Beginning in October 2010, the NCUA Board, as liquidating agent of the AMEs, transferred
Legacy Assets to NGN Trusts and re-securitized them through the issuance of a series of
floating and fixed-rate NGNs. The NGNs have final maturities ranging from 2013 to 2021. As
of December 31, 2013 and 2012, the outstanding principal balance of the NGNs was
$17.5 billion and $21.2 billion, respectively. This amount represents the maximum potential,
but not the expected, future guarantee payments that NCUA could be required to make.

The NCUA, principally through the TCCUSF, is obligated to make guarantee payments
through the NGN Trusts to the NGN holders under certain conditions outlined in the respective
indentures and related agreements with respect to timely payment of interest and ultimate
principal on the NGNs, as well as any parity payments. As of a given payment date, parity
payments are due when the unpaid principal balance of all Legacy Assets underlying a
particular NGN Trust, after realized and implied losses, if applicable, is less than the remaining
unpaid principal balance of the related NGNs after distribution of all cash collected on the
Legacy Assets for such payment date.

As of December 31, 2013 and 2012, there were no probable losses for the guarantee of NGNs
associated with 13 re-securitization transactions. Although the gross estimated guarantee
payments were approximately $3.3 billion and $4.5 billion, respectively, these payments are
estimated to be offset by:

     i)      related reimbursements and interest from the Legacy Assets of the NGN Trusts
             received directly from contractual reimbursement rights pursuant to the governing
             documents of approximately $2.8 billion and $3.3 billion as of December 31,
             2013 and 2012, respectively; and
     ii)     indirectly by collections pursuant to NCUA’s right as liquidating agent from
             portions of the AMEs’ economic residual interests in NGN Trusts of up to
             approximately $3.2 billion and $2.0 billion as of December 31, 2013 and 2012,
             respectively, that are estimated to remain after all obligations of the NGN Trusts
             are satisfied.

Recoveries in the form of potential guarantor reimbursements by the NGN Trusts to the NCUA
are subordinate to payments on the NGNs in accordance with the respective indentures. As
such, reimbursements to the NCUA will not occur until the applicable NGNs have been repaid

                                                  27
  in full. After the NGNs are repaid in full, any cash flows received on the Legacy Assets
  underlying the NGN Trusts are directed toward reimbursements until the NCUA is reimbursed
  in full. The NCUA earns interest on any guarantee payments not yet reimbursed by the NGN
  Trusts at a rate equal to the interest rate on the associated NGNs.

  Guarantee fees are senior in the NGN Trust payment waterfall in accordance with the
  respective indentures. It is expected that the NCUA will receive a guarantee fee payment from
  the NGN Trusts on each NGN payment date. The guarantee fee amount due to the NCUA, at
  each monthly payment date, is equal to 35 basis points per year on the outstanding NGN
  balance prior to the distribution of principal on the payment date.

  The NCUA's estimated guarantee payments, guarantor reimbursements, and the recovery value
  of the AMEs' economic residual interests in the NGN Trusts are derived using an external
  model that distributes estimated cash flows of the Legacy Assets transferred to the NGN Trusts
  in the priority of payments pursuant to the indenture of each NGN Trust. The estimated cash
  flows incorporate the NCUA's assumptions about discount rates.

  The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived
  from the external model that incorporates the NCUA's expectations and assumptions about the
  estimated cash flows from the collateral that comprise the Legacy Assets, and the priority of
  payments and estimated cash flows of the Legacy Assets pursuant to the governing documents
  for the respective Legacy Assets.

  The external model produces estimated cash flows of collateral underlying the Legacy Assets
  by incorporating the NCUA's expectations and assumptions about prepayments, defaults and
  loss severity of the collateral consisting of residential and commercial mortgage loans and
  other assets. Assumptions about prepayments, defaults and loss severity are developed based
  on the characteristics and historical performance of the collateral, as well as assumptions about
  macroeconomic variables such as unemployment rates, housing prices and interest rates.

9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between Intragovernmental and Public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from
  transactions with other federal entities, including imputed costs for CSRP administrative
  expenses paid by the NCUA Operating Fund but not reimbursed by the TCCUSF. Public
  revenue and expenses arise from transactions with domestic and foreign persons and
  organizations outside of the Federal Government. The associated costs and revenue of the
  TCCUSF’s initiatives for the years ended December 31, 2013 and 2012 are provided below.
  When guarantee payments are made for the TCCUSF’s initiatives, the TCCUSF obtains funds
  from special premium assessments, available cash, investments, and borrowings from the U.S.
  Treasury.




                                                    28
   For the Year Ended December 31, 2013

   Intragovernmental Costs and
   Exchange Revenue                           TCCUSGP           TCCULGP            NGNs             Other             TOTAL
   (Dollars in thousands)

   Intragovernmental Costs                $             -   $             -   $            -    $        9,871    $        9,871
   Public Costs (Reduction)                             -                 -                -        (2,504,480)       (2,504,480)
       Total                                            -                 -                -        (2,494,609)       (2,494,609)
   Intragovernmental Exchange Revenue                   -                 -                -            (211)             (211)
   Public Exchange Revenue                              -                 -          (67,161)       (694,199)         (761,360)
       Total                                            -                 -          (67,161)       (694,410)         (761,571)
         Net Cost/(Income)                $             -   $             -   $      (67,161)   $ (3,189,019)     $ (3,256,180)

   For the Year Ended December 31, 2012

   Intragovernmental Costs and
   Exchange Revenue                           TCCUSGP           TCCULGP            NGNs             Other             TOTAL
   (Dollars in thousands)

   Intragovernmental Costs                $            -    $            -    $            -    $       8,523     $       8,523
   Public Costs (Reduction)                       (3,879)         (234,056)                -         (562,335)         (800,270)
       Total                                      (3,879)         (234,056)                -         (553,812)         (791,747)
   Intragovernmental Exchange Revenue                  -                 -                 -            (336)             (336)
   Public Exchange Revenue                             -            (4,301)          (80,511)       (792,493)         (877,305)
       Total                                           -            (4,301)          (80,511)       (792,829)         (877,641)
         Net Cost/(Income)                $       (3,879)   $     (238,357)   $      (80,511)   $ (1,346,641)     $ (1,669,388)

   For the years ended December 31, 2013 and 2012, other intragovernmental costs of
   $9.9 million and $8.5 million, respectively, included interest expense on borrowings, imputed
   costs, and the fee on the early retirement of borrowings from the U.S. Treasury. Public costs
   include administrative costs and a reduction in insurance losses of $2.5 billion and
   $800.3 million for the years ended December 31, 2013 and 2012, respectively. Public
   exchange revenue of $761.4 million and $877.3 million consists primarily of special premium
   assessments invoiced during the years ended December 31, 2013 and 2012, respectively.

10. TERMS OF BORROWING AUTHORITY USED

   On June 23, 2009, the NCUA entered into a Memorandum of Understanding (MOU) with the
   U.S. Treasury to establish the terms and conditions for borrowing from the U.S. Treasury.
   This MOU is reviewed and updated annually. Interest is payable annually on the anniversary
   of the first advance, which was June 25, 2009. The interest rate resets on each anniversary at a
   rate equal to the average market yield on the outstanding marketable obligations of the United
   States with maturities equal to 12 months. The interest rate per the MOU was 0.157% and
   0.191% at December 31, 2013 and 2012, respectively, with a maturity of June 25, 2021. Early
   repayment of any advance is made at a price determined by the U.S. Treasury per the current
   MOU.




                                                                              29
11. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

   The TCCUSF shares its $6.0 billion borrowing authority from the U.S. Treasury with the
   NCUSIF. For the years ended December 31, 2013 and 2012, the TCCUSF borrowed $0 and
   $1.9 billion from the U.S. Treasury, respectively. The TCCUSF repaid $2.2 billion and
   $300.0 million of borrowings in 2013 and 2012, respectively.

   At December 31, 2013 and 2012, the TCCUSF, together with the NCUSIF, had $3.1 billion
   and $900.0 million, respectively, in available borrowing capacity.

12. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY RESOURCES

   The Statement of Budgetary Resources discloses total budgetary resources available to the
   TCCUSF and the status of resources as of December 31, 2013 and 2012. Activity impacting
   budget totals of the overall Federal Government budget is recorded in the TCCUSF’s
   Statement of Budgetary Resources budgetary accounts. As of December 31, 2013 and 2012,
   the TCCUSF’s resources in budgetary accounts were $3.6 billion and $5.0 billion, respectively,
   and undelivered orders were $3.0 million and $2.2 million, respectively. All liabilities are
   covered by budgetary resources, excluding the Insurance and Guarantee Program Liabilities
   because they are contingent liabilities and do not require budgetary resources until the
   liabilities are no longer contingent. All obligations incurred by the TCCUSF are reimbursable.
   The TCCUSF is exempt from OMB apportionment control.

   Budgetary resources listed on the TCCUSF’s financial statements and the budgetary resources
   found in the budget of the Federal Government differ because the TCCUSF’s statements are
   prepared as of December 31, calendar year, rather than as of September 30, the Federal
   Government’s fiscal year end.

13. FIDUCIARY ACTIVITIES

   The NCUA's fiduciary activities, in accordance with SFFAS No. 31, involve the collection or
   receipt, management, protection, accounting, investment, or disposition by AMEs and NGN
   Trusts of cash and other assets in which non-federal individuals or entities have an ownership
   interest. Fiduciary assets are not assets of the Federal Government. Fiduciary activities are not
   recognized on the financial statements, but are reported on schedules in the notes to the
   financial statements in accordance with SFFAS No. 31.

   The NCUA Board, as liquidating agent of the AMEs, disburses funds for obligations owed by
   and collects money due to the AMEs.

   The Bridge Corporates, as previously discussed herein, were established to function in a
   temporary capacity and were formed by the NCUA Board as chartered private enterprises to
   purchase and assume selected assets, liabilities and member shares of the AMEs resulting from
   the five CCU liquidations that occurred in 2010. The Bridge Corporates were established to
   provide uninterrupted services to the consumer credit unions and CCUs that were members of
   the now failed CCUs. As of December 31, 2012, all Bridge Corporates were resolved through
   merger or liquidation.

   At the time of liquidation in 2010, the AMEs had an aggregate deficit of approximately
   $7.2 billion, which represented the difference between the value of the AMEs' assets and the
                                                    30
contractual or settlement amount of the claims and member shares recognized by the NCUA
Board as the liquidating agent.

As previously discussed herein, in an effort to maximize recoveries and minimize losses to the
AMEs and all insured credit unions, the NCUA provided guarantees on the various obligations
of the AMEs. In addition, to facilitate the orderly liquidation of the Legacy Assets held by the
AMEs, the NCUA provided guarantees on the NGNs issued through a series of re-
securitization transactions. During 2010 and 2011, the NCUA completed thirteen NGN
transactions with net proceeds of $28.3 billion.

The schedules of fiduciary activity and the fiduciary net assets/liabilities of the AMEs and the
NGN Trusts for the years ended December 31, 2013 and 2012 are presented below. The
preparation of these schedules requires the NCUA Board, in its role as the liquidating agent, to
make estimates and assumptions that affect the reported amounts of assets, liabilities, revenues
and expenses of the AMEs and the NGN Trusts.

The NCUA, in its role as the guarantor, is exposed to the risk of loss from various guarantees
extended to the creditors of both the AMEs and the NGN Trusts. The estimates and
expectations regarding the contingent liabilities recorded on the TCCUSF's Balance Sheet
related to these guarantees are based on our current assumptions about the future performance
of Legacy Assets collateralizing the NGNs issued through the NGN Trusts and the recovery
value of other assets held by the AMEs. Actual results could differ materially from our current
estimates and expectations.

Schedule of Fiduciary Activity                                         For the Year Ended December 31, 2013

(Dollars in thousands)                              AMEs               NGN Trusts              Eliminations           TOTAL

 Fiduciary Net Liabilities, Beginning of Year   $     6,816,904    $                 -     $                  -   $     6,816,904
 Net Realized Losses upon Liquidations                        -                      -                        -                 -
 Revenues
   Interest on Loans                                     (4,898)                     -                      -               (4,898)
   Income from AMEs on Re-Securitized Assets                  -               (289,989)               289,989                    -
   Income from Investment Securities                   (397,268)                     -                      -             (397,268)
   Settlements                                       (1,588,663)                     -                      -           (1,588,663)
   Other Fiduciary Revenues                              (3,958)                     -                      -               (3,958)
 Expenses
   Professional and Outside Services Expenses          390,644                       -                       -            390,644
   Interest Expense on Borrowings and NGNs                   -                 222,828                       -            222,828
   Payments to NGN Trusts                              289,989                       -                (289,989)                 -
   Guarantee Fees                                            -                  67,161                       -             67,161
   Other Expenses                                        2,540                       -                       -              2,540
 Net Change in Recovery Value of
   Assets and Liabilities                            (1,681,203)                     -                        -         (1,681,203)
 Increase in Fiduciary Net Liabilities               (2,992,817)                     -                        -         (2,992,817)

FIDUCIARY NET LIABILITIES, END OF YEAR          $     3,824,087    $                 -     $                  -   $     3,824,087




                                                       31
Schedule of Fiduciary Activity                                        For the Year Ended December 31, 2012

(Dollars in thousands)                              AMEs              NGN Trusts              Eliminations           TOTAL

 Fiduciary Net Liabilities, Beginning of Year   $     7,480,343   $                 -     $                  -   $     7,480,343
 Net Realized Losses upon Liquidations                   26,902                     -                        -            26,902
 Revenues
   Interest on Loans                                    (7,898)                     -                      -              (7,898)
   Income from AMEs on Re-Securitized Assets                 -               (338,358)               338,358                   -
   Income from Investment Securities                  (462,231)                     -                      -            (462,231)
   Other Fiduciary Revenues                            (17,751)                     -                      -             (17,751)
 Expenses
   Professional and Outside Services Expenses           15,834                      -                       -            15,834
   Interest Expense on Borrowings and NGNs              52,526                257,847                       -           310,373
   Payments to NGN Trusts                              338,358                      -                (338,358)                -
   Guarantee Fees                                        4,301                 80,511                       -            84,812
   Other Expenses                                        9,112                      -                       -             9,112
 Net Change in Recovery Value of
 Assets and Liabilities                               (622,592)                     -                        -          (622,592)
 Increase in Fiduciary Net Liabilities                (663,439)                     -                        -          (663,439)

FIDUCIARY NET LIABILITIES, END OF YEAR          $     6,816,904   $                 -     $                  -   $     6,816,904


Comparing 2013 activity for the year in the schedule of fiduciary activity with 2012, the
increase in fiduciary net liabilities line-item improved by $2.3 billion. The primary drivers
were with the line-items settlements and net change in recovery value of assets and liabilities.
The settlements line-item increased by $1.6 billion and included settlements with Bank of
America and JPMorgan Chase. The net change in recovery value of assets and liabilities line-
item increased by $1.1 billion for anticipated future cash flows of the Legacy Assets in the
NGN Program.

The schedule of fiduciary activity includes revenues earned on the investments, including
Legacy Assets, loans, real estate and other investments, and expenses incurred in orderly
liquidation of the AMEs, including interest expense on borrowings and the NGNs. The Net
Change in Recovery Value of Assets and Liabilities includes the realized and unrealized gains
and losses on the Legacy Assets, loans, real estate, investments and other assets and liabilities.




                                                       32
Schedule of Fiduciary Net Assets/Liabilities                                       As of December 31, 2013

(Dollars in thousands)                                     AMEs               NGN Trusts             Eliminations           TOTAL

Fiduciary Assets
  Cash and Cash Equivalents                            $       311,115    $          271,609     $                 -    $       582,724
  Legacy Assets                                                     38                     -                       -                 38
  Legacy Assets/Investments Collateralizing the NGNs        19,779,076               354,071                       -         20,133,147
  Loans                                                        126,531                     -                       -            126,531
  Receivable from AMEs                                               -            16,893,900             (16,893,900)                 -
  Other Fiduciary Assets                                       117,660                     -                       -            117,660
TOTAL FIDUCIARY ASSETS                                      20,334,420            17,519,580             (16,893,900)        20,960,100
Fiduciary Liabilities
  Accrued Expenses                                            (337,211)              (11,260)                      -            (348,471)
  NGNs                                                               -           (17,508,320)                      -         (17,508,320)
  Due to NGN Trusts                                        (16,893,900)                    -              16,893,900                   -
  Unsecured Claims and Payables                                 (3,944)                    -                       -              (3,944)
  Due to TCCUSF (Note 6)                                    (6,923,452)                    -                       -          (6,923,452)
TOTAL FIDUCIARY LIABILITIES                                (24,158,507)          (17,519,580)             16,893,900         (24,784,187)
TOTAL FIDUCIARY NET ASSETS / (LIABILITIES)             $    (3,824,087)   $                -     $                 -    $     (3,824,087)




Schedule of Fiduciary Net Assets/Liabilities                                       As of December 31, 2012

(Dollars in thousands)                                     AMEs               NGN Trusts             Eliminations           TOTAL

Fiduciary Assets
  Cash and Cash Equivalents                            $        39,503    $          322,737     $                 -    $       362,240
  Legacy Assets                                                     49                     -                       -                 49
  Legacy Assets/Investments Collateralizing the NGNs        21,251,948               696,395                       -         21,948,343
  Loans                                                        146,341                     -                       -            146,341
  Receivable from AMEs                                               -            20,154,923             (20,154,923)                 -
  Other Fiduciary Assets                                       208,018                     -                       -            208,018
TOTAL FIDUCIARY ASSETS                                      21,645,859            21,174,055             (20,154,923)        22,664,991
Fiduciary Liabilities
  Accrued Expenses                                             (40,830)              (14,048)                      -             (54,878)
  NGNs                                                               -           (21,160,007)                      -         (21,160,007)
  Due to NGN Trusts                                        (20,154,923)                    -              20,154,923                   -
  Unsecured Claims and Payables                                   (891)                    -                       -                (891)
  Due to TCCUSF (Note 6)                                    (8,266,119)                    -                       -          (8,266,119)
TOTAL FIDUCIARY LIABILITIES                                (28,462,763)          (21,174,055)             20,154,923         (29,481,895)
TOTAL FIDUCIARY NET ASSETS / (LIABILITIES)             $    (6,816,904)   $                -     $                 -    $     (6,816,904)


The schedule of fiduciary net assets reflects the expected recovery value of the AMEs' assets,
including the Legacy Assets collateralizing the NGNs issued through the NGN Trusts, and the
settlement value of valid claims against the AMEs outstanding at December 31, 2013 and
2012. Certain claims against the AMEs, including the NGNs, are guaranteed by the NCUA as
previously discussed herein.

Fiduciary assets include cash, investments in U.S. Treasury securities held by TCCUSF,
investments in Legacy Assets collateralizing the NGNs, consumer and mortgage loans,
investments in credit union service organizations, buildings, fixtures, furniture, equipment and
other investments. At December 31, 2013, Cash and Cash Equivalents included $301.0 million
                                                              33
in non-marketable U.S. Treasury daily overnight securities held as fiduciary assets by
TCCUSF. Fiduciary assets are recorded at values that are estimated to be recovered based on
market information and external valuations, such as appraisals, as well as internal and external
models incorporating the NCUA’s current assumptions regarding numerous factors, including
prepayments, defaults, loss severity and discount rates.

Fiduciary liabilities include the NGNs and related accrued interest expense, unsecured claims
and accrued liquidation costs. Fiduciary liabilities related to borrowings and claims are
recorded at their contractual or settlement amounts as agreed by the NCUA and the creditors.
Accrued liquidation costs reflect the NCUA's estimates and assumptions regarding the timing
and associated costs to dispose of the AME assets. The future estimate of liquidation costs, as
well as the actual amounts, could differ materially from current estimates and assumptions.

Unless expressly guaranteed by the NCUA and backed by the full faith and credit of the United
States, the AMEs' unsecured creditors could only expect to be paid if recoveries from the assets
of the AMEs are sufficient to be distributed to the unsecured creditors in order of priority as set
forth in 12 CFR § 709.5(b).




                                                  34
14. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

   The Reconciliation of Net Cost of Operations to Budget explains the difference between the
   budgetary net obligations and proprietary net cost of operations. The Reconciliation of Net
   Cost of Operations to Budget consisted of the following:
                                                                        As of                As of
   Reconciliation of Net Cost of Operations to Budget              December 31, 2013    December 31, 2012
   (Dollars in Thousands)

   Resources Used to Finance Activities:

   Unobligated Balance, brought forward, January 1                 $      1,359,863     $      3,058,245
   Borrowing Authority Realized                                           2,200,000              300,000
   Spending Authority from Offsetting Collections
       Collected                                                           2,109,923           1,848,467
       Change in Receivables from Federal Sources                              3,220                 690
     Permanently not available                                            (2,200,000)           (300,000)
     Nonexpenditure Transfers, Net                                            95,291              88,090

       Total Budgetary Resources                                           3,568,297            4,995,492
       Less Unobligated Balance - Exempt from Apportionment               (3,546,554)          (1,359,863)
   Total Obligations Incurred                                                 21,743            3,635,629
   Imputed Financing                                                           1,015                1,897
           Total Resources Used to Finance Activities                        22,758            3,637,526

   Resources Used to Fund Items Not Part of the Net Cost
   of Operations:
   Other Collections                                                      (1,348,352)           (970,826)
   Change in Budgetary Resources Obligated for Goods and
     Services Not Yet Received                                                  (819)                (987)
   Costs Capitalized/(Recovered) on the Balance Sheet                     (1,168,171)          (3,218,608)
   Other Adjustments to Net Obligated Resources that
     do not Affect Net Cost of Operations                                        (25)               (917)
           Total Resources Used to Fund Items Not Part of
           Net Cost of Operations                                         (2,517,367)          (4,191,338)


   Costs Included in the Net Cost of Operations That Do Not
   Require Resources During the Reporting Period:

   Reserve for Guarantee Liabilities                                               -            (237,935)
   Revenue Recognized
      Interest Collected - on Investments                                      (211)                 (336)
      Guarantee Fees                                                        (67,161)              (84,812)
      Special Premiums                                                     (694,199)             (792,493)
          Total Costs That Do Not Require Resources                        (761,571)           (1,115,576)

   Net Cost of Operations                                          $      (3,256,180)   $      (1,669,388)

15. SUBSEQUENT EVENTS

   Subsequent events have been evaluated from the Balance Sheet date through March 14, 2014,
   which is the date the financial statements were available to be issued. Management has
   determined that there were no items to disclose as of December 31, 2013.
                                                              35
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)

 Risk Assumed Information

 Contingent Liability

 As discussed previously herein, the purpose of the TCCUSF is to accrue the losses of the CCU
 system and recover such losses over time. The NCUA identifies CCUs at risk of failure
 through the supervisory and examination process and estimates losses based upon
 macroeconomic trends and CCU's financial condition and operations.

 The TCCUSF recognized no net contingent liability for expected losses from the failed CCUs
 pursuant to SFFAS No. 5 at December 31, 2013 and 2012. In 2012, the TCCUSF was
 principally responsible for three initiatives and related guarantees to stabilize the corporate
 credit union system: the TCCUSGP, the TCCULGP, and the NGNs. As of December 31,
 2012, the TCCUSF had no further obligations under the TCCUSGP and TCCULGP due to
 expiration of related guarantees. In 2013, the TCCUSF was responsible for the guarantees
 related to the NGNs. As of December 31, 2013 and 2012, NCUA estimated no insurance
 losses from the NGNs.

 At December 31, 2013 and 2012 the TCCUSF had accrued for losses of the CCU system of
 approximately $4.6 billion and $7.1 billion consisting of allowance for loss against receivables
 from the AMEs, respectively.

 As discussed in Notes 6 and 8, during 2013 and 2012, the TCCUSF made guarantee payments
 of $0 and $3.7 billion, respectively. As of December 31, 2013 and 2012, the TCCUSF had
 gross receivables from the AMEs of $6.9 billion and $8.3 billion, against which an allowance
 for losses of approximately $4.6 billion and $7.1 billion was established, respectively.

 Fees and Premiums

 Under the NGN initiative, the TCCUSF is entitled to guarantee fees on a monthly basis for
 providing associated guarantees as previously discussed in Notes 4 and 8. As of December 31,
 2013 and 2012, the estimated value of TCCUSF guarantee fees for the remaining term of the
 NGNs, which will lessen the expected losses recognized by TCCUSF, was $200.0 million and
 $280.4 million, respectively.

 In addition, the NCUA Board, under the FCU Act, may assess insured credit unions special
 premiums to cover payments for the conservatorship, liquidation, or threatened conservatorship
 or liquidation of CCUs. The TCCUSF assessed a special premium of $694.2 million and
 $792.5 million in 2013 and 2012, respectively. Currently, no additional special premium
 assessments are expected for the recovery of losses over the remaining term of the TCCUSF.
 Should adverse conditions develop, the NCUA Board may have to impose an assessment.

 Sensitivity, Risks, and Uncertainties of the Assumptions

 As discussed in Note 8, the NCUA estimates the expected losses from the initiatives created by
 the NCUA to stabilize the CCU system using various methodologies, including internal models
 that incorporate the NCUA's expectations and assumptions about the anticipated recovery
 value, if any, of the AMEs' assets and the Legacy Assets collateralizing the NGNs.
                                                  36
The development of assumptions for key input variables of the estimation models and external
valuations is a highly subjective process that involves significant judgment. Future values are
difficult to estimate, especially over longer timeframes. Key assumptions in the modeling
include borrower status, prepayments, default, loss severity, discount rates, forward interest
rate curves, house price appreciation forecasts, legal and regulatory changes, property
locations, and unemployment expectations. Assumptions also vary by asset type and vintage.
The assumptions developed for the estimation models are regularly evaluated by the NCUA to
determine the reasonableness of those assumptions over time.

As discussed in Note 8, the NCUA's estimated guarantee payments, guarantor reimbursements,
and the recovery values, if any, of the AMEs' economic residual interests in the NGN Trusts
are derived using an external model that distributes estimated cash flows of the Legacy Assets
transferred to the NGN Trusts in the priority of payments pursuant to the governing documents
of each NGN Trust. The estimated cash flows incorporate the NCUA's assumptions about
discount rates.

The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived
from the external model that incorporates the NCUA's expectations and assumptions about the
estimated cash flows from the collateral underlying the Legacy Assets and the priority of
payments and estimated cash flows of the Legacy Assets pursuant to the governing documents
for the respective Legacy Assets.

The external model produces estimated cash flows of collateral underlying the Legacy Assets
by incorporating the NCUA's expectations and assumptions about prepayments, defaults and
loss severity of the collateral consisting of residential and commercial mortgages and other
assets. Assumptions about prepayments, defaults and loss severity are developed based on the
characteristics and historical performance of the collateral, as well as assumptions about
macroeconomic variables such as unemployment rate and housing prices, among other factors.

While certain parts of the credit market have seen recent improvements, the performance of
asset- and mortgage-backed securities, such as the Legacy Assets, remains uncertain. The
longer-term outlook for borrower and loan performance is uncertain. Uncertainty around
housing prices, interest and unemployment rates, legal and regulatory actions, and the
relationship of these factors to prepayment, loss severity, default and delinquency rates will
likely change over time. Legacy Asset performance continues to be challenging to predict, and
the external model used to derive the expected losses to the TCCUSF from the guarantee of the
NGNs is sensitive to assumptions made about Legacy Asset performance. For example,
changing the assumptions for reasonably possible variations in certain macroeconomic factors
such as a decline in housing prices from its most recent peak in the external model would have
resulted in no expected losses, net of estimated guarantor reimbursements and the economic
residual interests in the NGN Trusts (but exclusive of the estimated guarantee fees for the
remaining term of the NGNs) associated with thirteen re-securitization transactions, under any
scenario as of December 31, 2013. However, such changes in the assumptions would have
resulted in an amount for the Receivables from the AMEs, Net that differed from the
recognized on the TCCUSF’s Balance Sheet as of December 31, 2013.

The estimates of the NCUA's guarantee payments under the NGNs require significant
judgment and will change over time. Forecasting borrower behavior and changes in the
macroeconomic environment is inherently difficult. Historical trends are not indicative of
                                                 37
future performance. Even under so-called normal conditions, leading economic experts have
great difficulty predicting economic conditions with any degree of certainty. Consistent with
accounting standards, the assumptions used to estimate the cash flows of the NGNs, Legacy
Assets underlying the NGNs, and collateral underlying the Legacy Assets will require
continued calibration and refinement as circumstances change.




                                                38
